August 17, 2010

DEAN J. GRANHOLM
VICE PRESIDENT, DELIVERY AND POST OFFICE OPERATIONS

SUBJECT: Audit Report – Stations and Branches Optimization and
         Consolidation Initiative (Report Number EN-AR-10-005)

This report presents the results of our review of the U.S. Postal Service’s efforts to
optimize the retail network (Project Number 10XG021EN000). Our objective was to
assess the Stations and Branches Optimization and Consolidation (SBOC) Initiative for
discontinuance of classified stations and branches.1 This self-initiated audit addresses
strategic, financial, and operational risks. This is the first in a series of retail optimization
reviews. See Appendix A for additional information about this audit.

The Postal Service’s current retail network of approximately 32,000 facilities reflects a
time when practically all retail revenue was generated through window transactions at
“brick and mortar” Postal Service facilities, mail volume was robust, and there was less
alternate access to postal services. Congress recognized in the Postal Accountability
and Enhancement Act of 20062 that the Postal Service has more facilities than it needs
and strongly encouraged streamlining the network. These factors, combined with its
current financial challenges, have made it incumbent upon the Postal Service to review
the number and location of stations and branches to determine whether or not there is
excess capacity in the network.

While a station or branch is similar in many ways to a PO, there are some meaningful
differences, particularly from the Postal Service’s perspective and administrative
standpoint. POs are established and maintained at locations to ensure that complete
postal services are available to all customers within specified boundaries of named
geographic places. Stations and branches are subordinate units within the service area
of POs. Operations at stations and branches are directed by each facility’s supervising
PO.




1
  Classified stations and branches are staffed by Postal Service personnel under the administration of an
independent Post Office™(PO). Stations are located within and branches are located outside of the corporate limits
of the city or town in which the independent PO is located.
2
  P.L. 109-435, December 2006.
Stations and Branches Optimization                                                               EN-AR-10-005
 and Consolidation Initiative


Conclusion

The SBOC Initiative is a viable option for the Postal Service to reduce costs in the retail
network, but opportunities exist to improve the process. The Postal Service could have
enhanced the planning and management of the initiative by improving communication
and coordination with stakeholders3 and developing accurate and reliable data on its
facilities. In addition, the Postal Service needs to raise stakeholders’ confidence that it
will make decisions in a transparent, equitable, and fact-based manner by integrating a
strategic approach (top-down) and establishing clear criteria for evaluating
discontinuance decisions.

Better Planning and Management of the SBOC Initiative Would Help Enhance the
Process

Both federal law4 and postal policies5 prescribe a PO discontinuance process. In
contrast, the Postal Service uses an expedited process to close stations and branches,
which is not specifically covered by statute. Absent future legislative changes, the two
discontinuance processes are warranted to promote a flexible, agile Postal Service to
adapt to changing mailing preferences and to increase the opportunity to consolidate
redundant retail facilities.

While the Postal Service developed an expedited process for closing stations and
branches, it is primarily subjective and qualitative in nature. Specifically, we found:

       There are no established procedures for the SBOC Initiative, as it is a unique
        project the Postal Service implemented quickly.

       SBOC Initiative training does not adequately address strong stakeholder
        resistance and how the initiative affects other postal optimization efforts and vice
        versa.

       Data entry errors, including misidentification of facilities, resulted in discrepancies
        in facilities identified for the SBOC Initiative.

       The SBOC Initiative’s lack of clear criteria may have caused inconsistencies in
        evaluating factors used for determining the feasibility of discontinuing operations.

The Postal Service has not posted a status update on the SBOC Initiative on its external
website (usps.com) since February 2010. Postal Service Headquarters (HQ) did provide
an updated list (dated March 2010) showing that 156 facilities remained under
consideration for discontinuance. Based on our fieldwork, we determined that district

3
  Postal Service employees, Congress, local communities, and unions.
4
  Title 39 U.S.C. Section 404(d)
5
  Handbook PO-101, Post Office Discontinuance Guide, August 2004, and Postal Operations Manual, Issue 9, July
2002.



                                                       2
Stations and Branches Optimization                                                                    EN-AR-10-005
 and Consolidation Initiative


offices forwarded 144 proposals6 recommending discontinuance of operations to HQ.
However, management has made no decisions regarding which, if any, of these
facilities it will close through the time of our report. Management stated other initiatives,
including 5-day delivery,7 have taken priority over the SBOC Initiative. As a result, the
Postal Service spends about $425,000 per month to maintain operations at 28 of the
144 facilities we randomly selected for review. The Postal Service could realize cost
savings of over $1.7 million in fiscal year (FY) 2010 if they approve discontinuance of
operations for the 28 facilities after HQ Retail Operations has completed its pre-
decisional review of the proposals.

Without timely decisions to approve or disapprove discontinuance proposals, there is an
increased risk of disrupting certain field operations. In addition, stakeholders may
perceive the Postal Service as being indecisive.

Further, district management removed three leased stations from discontinuance
consideration and provided “no lease termination/buy-out not cost effective” as the only
non-feasible justification. Our review of the three stations’ lease agreements revealed
that the agreements contain a lease termination clause in the Postal Service’s interest.
Accordingly, the Postal Service may have also missed an opportunity to reduce lease
costs by approximately $1 million for the three stations. See Appendix B for our detailed
analysis of this topic.

Postal Service Actions – Management stated they are developing a decision tree-based
retail discontinuance model to mitigate the inconsistency and subjectivity identified in
our review. The project is currently in the design phase. Management plans to complete
and deploy this model in FY 2011.

Management added that they have initiated, in coordination with the Continuous
Improvement Office, a Lean Six Sigma8 (LSS) study of the discontinuance process for
POs and other retail facilities. The project scope, milestones, and completion date had
not been established at the time of our report.

We recommended the vice president, Delivery and Post Office Operations:

1. Develop detailed policies and procedures for the station and branch closing process.

2. Improve the reliability and usefulness of retail facilities data by validating, correcting,
   and updating information in the database.

6
  According to HQ management, some Pacific Area district offices have not completed discontinuance studies for 12
facilities.
7
  The plan calls for 5 days of delivery to street addresses and 6 days of service at POs and PO boxes. The Postal
Service plans to implement 5-day delivery in FY 2011. Implementation is contingent on Congress not enacting
legislation to prevent that change in service. On March 30, 2010, the Postal Service requested the Postal Regulatory
Commission (PRC) to review its plans and issue an advisory opinion.
8
  Lean management is focused on reducing waste and improving process flows while Six Sigma methodologies
concentrate on reducing variation or defects and improving quality.



                                                         3
Stations and Branches Optimization                                            EN-AR-10-005
 and Consolidation Initiative



3. Develop measurable criteria to mitigate inconsistencies in evaluating factors used for
   determining the feasibility of discontinuing operations at stations and branches.

4. Process and approve or disapprove discontinuance proposals in a timely manner.

Management’s Comments

Management agreed with the findings, recommendations, and monetary impact and has
initiated actions to address the recommendations identified in the report. Management
added they will incorporate LSS revisions to their existing work flow at the completion of
the study in the Fall 2010. See Appendix H for management’s comments in their
entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to our recommendations and corrective actions should resolve
the issues identified in the report.

The OIG considers all the recommendations significant and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Michael A. Magalaski, director,
Network Optimization, or me at 703-248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Steven J. Forte
    Greg G. Graves
    Corporate Audit and Response Management



                                            4
Stations and Branches Optimization                                                                     EN-AR-10-005
 and Consolidation Initiative


                              APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service operates a retail network of over 27,000 post offices and 4,800
subordinate station and branch facilities. While a station or branch is similar in many
ways to a PO, there are some meaningful differences, particularly from the Postal
Service’s perspective and from an administrative standpoint. A PO is the basic
organizational unit of the Postal Service, having primary responsibility for mail
collection, processing, and delivery; and retail operations in a specific geographic area.
The postmaster at each office’s supervising PO directs operations at the stations and
branches.

The current locations of Postal Service retail facilities reflect decisions made over
decades to create retail and delivery networks that fulfill the Postal Service’s statutory
obligation to provide customers with ready access to essential postal services.9 Also,
those decisions were made when alternative access to retail postal services was not
available. Today, about 30 percent of retail revenue is generated through alternate
access channels. Customers can access stamps and postal services at usps.com, self-
serve kiosks, grocery stores, retail outlets, and privately operated shipper locations. In
addition, changes in mail processing technology have reduced the space needed for
carrier operations in retail facilities. Further, the Postal Service projects mail volumes to
steadily decline as business and household mailers are increasingly turning to
electronic media to transmit correspondence formerly sent through the postal system.

The availability of alternative access for customers combined with shifts in mail volume
to electronic alternatives and the increased use of mail processing technology
throughout operations have made it necessary for the Postal Service to review the
number and location of stations and branches and determine if there is excess capacity.

In April 2009, the Postal Service began a national initiative to consolidate retail facilities
by reviewing some of its 3,600 stations and branches that report to postmasters at or
above the Postal Service Executive & Administrative Schedule 2410 (EAS-24) level. The
SBOC Initiative focuses on facilities in urban and suburban areas because they are in
relatively close proximity to one another where consolidation might be feasible.

In July 2009, the Postal Service asked the PRC for an advisory opinion on the national
service implication of the proposed closures. However, in December 2009, it became
clear to the Postal Service that the SBOC Initiative will not change services that can be
characterized as “nationwide or substantially nationwide” and requested the PRC to
terminate the advisory opinion docket. The PRC continued its review and issued an
advisory opinion in March 2010 containing nine non-binding recommendations to
improve customers’ opportunity to offer input, the financial analysis used to estimate the
9
    Title 39 U.S.C. § 403(b).
10
     A salary structure that applies to most managerial and administrative Postal Service employees.



                                                            5
Stations and Branches Optimization                                                    EN-AR-10-005
 and Consolidation Initiative


cost savings, and written guidance on how to obtain relevant information and how to
apply the qualitative decision factors.

The SBOC Initiative is a unique project. As such, the Postal Service did not establish a
target date to finalize the review, an overall projected cost savings or goals. However,
because there are thousands of station and branch candidates for closure, the Postal
Service deployed a two-stage process to implement and manage the SBOC Initiative.

Pre-Screening

First, HQ established pre-screening criteria to help district offices identify stations and
branches that could be candidates for consolidation. In May 2009, HQ directed each
district office to review the business activities of the 3,600 stations and branches that
report to POs managed by postmasters at or above the EAS-24 level. The principal
purpose of the pre-screening process is to prioritize and authorize facilities for facility-
specific discontinuance studies. The pre-screening process relies upon such factors as:

      Proximity of other postal-operated retail facilities and alternate retail access
       channels.
      Availability of space at the gaining facility for carrier operations currently co-
       located with the candidate station/branch.
      Ability to accommodate current and future customer, postal, and employee
       vehicle parking needs.
      Imminence of a forthcoming lease termination opportunity for the candidate
       station/branch.
      Availability of retail windows and staffing at the gaining facility to avoid
       unreasonable wait-time in line.
      Retail revenue and transaction trends compared to same period last year for the
       candidate station/branch.

In September 2009 at the completion of the pre-screening process, district offices
authorized 759 stations and branches for full-discontinuance studies.

Discontinuance Study

Each candidate station and branch subjected to the facility-specific discontinuance
study process receives an analysis of the following factors:
      Retail transaction trends.
      Proximity to other retail service facilities and the ability of customers to access
       them.
      Space requirements and capabilities.



                                              6
Stations and Branches Optimization                                                                  EN-AR-10-005
 and Consolidation Initiative


        Wait-time in line and retail window service capacity.
        Impact on employees at the facility under study.
        Customer concerns expressed in response to questionnaires or in community
         meetings.
        Financial savings that could result from closure or consolidation.
        Alternate retail service and delivery options.
        Ability of nearby Postal Service facilities to accommodate retail, delivery, and
         mail processing workload that may shift to their locations.
        Other factors deemed appropriate.11

At the completion of a facility-specific study, the district manager determines whether to
pursue discontinuance. The district manager is then responsible for submitting
discontinuance proposals recommending closure to HQ for review and approval. HQ
Retail Operations review these pre-decisional recommendations and the last pre-
decisional step is submission of a recommendation to the vice president, Delivery and
Post Office Operations, for a final agency decision.

At the time of our report, district offices removed 603 of the 759 facilities authorized for
full-discontinuance studies from closure consideration. District offices in the Pacific Area
have not completed discontinuance studies for 12 facilities. There were 144
discontinuance recommendations awaiting final agency decision.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to assess the SBOC Initiative for discontinuance of classified stations
and branches. To accomplish this review, we:

        Reviewed Government Accountability Office (GAO) reports related to retail
         network optimizations.
        Reviewed the PRC Advisory Opinion on Station and Branch Optimization and
         Consolidation Initiative, 2009 and related documents.
        Reviewed Congressional Research Service reports related to retail facility
         closures.
        Reviewed and analyzed data from various databases including Enterprise Data
         Warehouse System, Facilities Management System and Model for
         Optimizing Retail Effectiveness.
        Randomly selected and reviewed 154 discontinuance studies prepared by
         districts offices.
11
  This stage is where the needs of customers (such as the non-English speaking, elderly, economically
disadvantaged, or those of limited mobility) are considered when making decisions.



                                                        7
    Stations and Branches Optimization                                                 EN-AR-10-005
     and Consolidation Initiative


          Interviewed HQ and field office officials.

    We conducted this performance audit from March through August 2010 in accordance
    with generally accepted government auditing standards and included such tests of
    internal controls as we considered necessary under the circumstances. Those
    standards require that we plan and perform the audit to obtain sufficient, appropriate
    evidence to provide a reasonable basis for our findings and conclusions based on our
    audit objective. We believe that the evidence obtained provides a reasonable basis for
    our findings and conclusions based on our audit objective. We discussed our
    observations and conclusions with management officials on June 24, 2010, and
    included their comments where appropriate.

    To conduct this review, we relied on computer-processed data maintained by Postal
    Service operational systems. We did not test the validity of controls over these systems.
    However, we verified the accuracy of the data by confirming our analysis and results
    with Postal Service managers and other data sources.

    PRIOR COVERAGE

                        Report           Final Report
  Report Title          Number               Date                   Report Results
Advisory Opinion      PRC Docket          3/10/2010     The Commission found it was
Concerning the        No. N2009-                        consistent with applicable public
Process For           1                                 policy for the Postal Service to
Evaluating                                              adjust its retail footprint to recognize
Closing Stations                                        changing customer needs and
and Branches                                            usage. However, the Commission
                                                        also found the Postal Service
                                                        should improve (1) customers’
                                                        opportunity to offer input, (2) the
                                                        financial analysis used to estimate
                                                        the cost savings, and (3) written
                                                        guidance on how to obtain relevant
                                                        information and how to apply the
                                                        qualitative decision factors.




                                                   8
     Stations and Branches Optimization                                                EN-AR-10-005
      and Consolidation Initiative



                         Report           Final Report
  Report Title           Number               Date                    Report Results
Analyzing the          RARC-WP-            6/14/2010      The Postal Service’s current retail
Postal Service’s       10-004                             facility planning appears to be a
Retail Network                                            bottom-up process. By contrast, an
Using an                                                  approach using economic modeling
Objective                                                 adds a top-down dimension to the
Modeling                                                  planning process, by offering
Approach                                                  consistent economic criteria for
                                                          locating and sizing retail facilities.
                                                          An approach combining top-down
                                                          economic modeling with adequate
                                                          bottom-up local review is well suited
                                                          to support the consolidation of
                                                          existing facilities and any opening of
                                                          new locations. By adopting a
                                                          thorough, transparent, and objective
                                                          approach to retail modernization,
                                                          the Postal Service can respond to
                                                          stakeholder concerns and optimize
                                                          its retail network.
Restructuring          GAO-09-             8/6/2009       To achieve financial viability, the
Urgently Needed        958T                               Postal Service must align its costs
to Achieve                                                with revenue, generate sufficient
Financial Viability                                       earnings to finance capital
                                                          investment, and manage its debt.
                                                          Key restructuring actions the Postal
                                                          Service could take include reducing
                                                          compensation and benefit costs,
                                                          consolidating retail and processing
                                                          networks and field structure, and
                                                          generating revenue through new or
                                                          enhanced products.




                                                      9
    Stations and Branches Optimization                                               EN-AR-10-005
     and Consolidation Initiative



                        Report           Final Report
   Report Title         Number               Date                    Report Results
Broad                 GAO-09-             7/30/2009     The Postal Service needs to
Restructuring         790T                              optimize its retail, mail processing,
Needed to                                               and delivery networks to eliminate
Address                                                 growing excess capacity, reduce
Deteriorating                                           costs, and improve efficiency. The
Finances                                                Postal Service began a national
                                                        initiative to consolidate some of its
                                                        postal retail stations and branches
                                                        in urban and suburban areas. The
                                                        study is expected to take about 4
                                                        months, with final decisions made
                                                        starting in October 2009.
                                                        Restructuring of the retail network
                                                        will face resistance since it will
                                                        affect service, employees, and local
                                                        communities.
Network               GAO-09-             5/20/2009     The Postal Service can streamline
Rightsizing           674T                              its retail network while improving
Needed to Help                                          access by closing unnecessary
Keep USPS                                               retail facilities and promoting lower-
Financially Viable                                      cost alternatives such as purchasing
                                                        stamps by mail, telephone, and the
                                                        Internet; as well as carrier pickup of
                                                        packages. The Postal Service
                                                        achieved its goal of identifying
                                                        unneeded retail facilities in
                                                        overserved areas.




                                                   10
    Stations and Branches Optimization                                               EN-AR-10-005
     and Consolidation Initiative



                        Report           Final Report
   Report Title         Number               Date                    Report Results
Escalating            GAO-09-             3/25/2009     Given the growing gap between
Financial             475T                              revenue and expenses, the Postal
Problems that                                           Service’s business model and its
Require Major                                           ability to remain self-financing may
Costs to Limit                                          be in jeopardy. Action is needed to
Losses                                                  streamline costs in two difficult
                                                        areas: (1) compensation and
                                                        benefits and (2) mail processing and
                                                        retail networks, which have growing
                                                        excess capacity. Closing postal
                                                        facilities is controversial but
                                                        necessary because the declining
                                                        mail volume and growing deficits
                                                        indicate the Postal Service cannot
                                                        afford to maintain such an extensive
                                                        network.
Deteriorating         GAO-09-             1/29/2009     The Postal Service needs to close
Postal Finances       332                               unnecessary retail facilities and, by
Require                                                 reducing the number of facilities,
Aggressive                                              could lower the cost of maintaining
Actions to                                              its network of facilities. The network
Reduce Costs                                            of retail facilities has remained the
                                                        same despite population shifts and
                                                        changes in mailing behavior.




                                                   11
Stations and Branches Optimization                                                                     EN-AR-10-005
 and Consolidation Initiative


                                 APPENDIX B: DETAILED ANALYSIS

Better Planning and Management of the SBOC Initiative Would Help Enhance the
Process

In April 2009, the Postal Service began a nationwide initiative to consolidate some of its
3,600 stations and branches in urban and suburban areas. However, we found the
Postal Service did not have:

        Detailed station and branch discontinuance procedures.

        Adequate guidance to address strong resistance to retail changes and to
         effectively communicate and coordinate the SBOC Initiative.

        Accurate and reliable data on its retail facilities.

In addition, the SBOC Initiative’s lack of clear criteria and use of a bottom-up approach12
may result in inconsistencies when evaluating factors used for determining feasibility to
discontinue operations. District offices submitted proposals to HQ recommending
discontinuance for 144 of the 156 stations and branches that remained under
consideration for discontinuance (see Appendix D for 156 facilities by state). However,
no decisions have been made regarding which, if any, of the 144 facilities the Postal
Service will close by the time of our report. Management stated that other initiatives,
including 5-day delivery, have taken priority over the SBOC Initiative.

As a result, the Postal Service spends about $425,000 per month to maintain operations
at 28 of the 144 facilities we randomly selected for review. We estimated the Postal
Service could realize cost savings of over $1.7 million in FY 2010 if they approved
discontinuance of operations for the 28 facilities after HQ Retail Operations has
completed its pre-decisional review of the proposals. In addition, without timely
decisions to approve or disapprove discontinuance proposals, there is an increased risk
of disrupting certain field operations and stakeholders may perceive the Postal Service
as being indecisive.

Further, district management removed three leased stations from discontinuance
consideration and provided “no lease termination/buy-out not cost effective” as the only
non-feasible justification. Our review of the three stations’ lease agreements revealed
that the agreements contain a lease termination clause in the Postal Service’s interest.
Accordingly, the Postal Service may also have missed an opportunity to reduce lease
costs by approximately $1 million for the three facilities (see Appendix C for our
monetary impact calculation).


12
  The decision-making process begins with the development of information by district offices because they have the
knowledge of local conditions and customers. The district is responsible for preparing and submitting all requests to
discontinue stations and branches to HQ. HQ approves or disapproves the proposed discontinuance.



                                                          12
Stations and Branches Optimization                                                                   EN-AR-10-005
 and Consolidation Initiative


Two Retail Facility Discontinuance Processes

The Postal Service uses one discontinuance process for POs and another for stations
and branches (see Appendix E). Both federal law and Postal Service policies set forth
regulations and procedures by which the Postal Service may proceed to close a PO.
The Postal Service must, among other things, provide customers with at least 60 days’
notice before the proposed closure date and any person served by the PO may appeal
its closure to the PRC. The PRC has 120 days to determine the merits of the appeal.
The PRC may require the Postal Service to reconsider its decision, but the ultimate
authority to close a PO rests with the Postal Service. In contrast, the station and branch
discontinuance process does not require public notification or provide an appeal
process. While postal policies do not explicitly state so, they suggest that the federal law
on PO discontinuance does not apply to station and branch closures. This suggestion is
substantiated by the following instruction from Handbook PO-101, Section 71:13

        Although thorough investigation and customer participation are
        encouraged in the discontinuance of a classified station, branch, or a
        Community Post Office (CPO), the formal process followed in the
        discontinuance of independent Post Offices is not required.

Absent future legislative changes, the two discontinuance processes are warranted to
promote a flexible, agile Postal Service to adapt to changing mailing habits and
preferences and to increase the opportunity to consolidate redundant retail facilities.

Station and Branch Discontinuance Process Issues

While the station and branch discontinuance process was developed to provide the
Postal Service with greater flexibility to aid in decision-making, postal policies do not
contain detailed procedures to ensure the process is fairly and consistently applied. This
is partially because the SBOC Initiative was a unique project the Postal Service
implemented quickly. Management used PowerPoint presentations to document,
communicate, and train its employees on the SBOC Initiative discontinuance process.
Appendix F provides a timeline showing the SBOC Initiative from concept development
to current status. Appendix G provides a flowchart of the SBOC Initiative discontinuance
process.

While presentations provide a swift means to communicate changes and updates to the
existing process, we believe they should not be a substitute for formal policies and
procedures. On April 6, 2010, during an interview with the OIG, the former program
manager for the Post Office Discontinuance Program acknowledged that Handbook PO-
101 should have step-by-step instructions. During other interviews, field managers
expressed a need for detailed discontinuance instructions.

13
   A CPO is staffed by a Postal Service-trained contractor who reports to an administrative PO. The CPO provides
service where a Postal Service facility has been discontinued or otherwise considered impractical. A CPO generally
retains the name of the PO.



                                                        13
Stations and Branches Optimization                                                                          EN-AR-10-005
 and Consolidation Initiative



We identified several weaknesses with the process used to guide the SBOC Initiative.
For example, in a June 3, 2009, training session, field employees were directed to use
the existing discontinuance process in Handbook PO-101 and the March 2009
PowerPoint presentation training. Management stated in the September 30, 2009,
Official Transcript of Proceeding Before the PRC that “the March 2009 training was an
inaccurate overview of the discontinuance process. . . .” In another example, the
PowerPoint presentation training was updated in July 2009 to reflect the SBOC Initiative
and clarify any previously circulated inaccurate information. However, the updated
training presentation continues to lack detailed procedures for addressing systemic
discontinuance issues.

Specifically, the July 2009 training presentation did not:

             Provide adequate guidance to address possible strong community and
              political resistance.

             Address what should be communicated to stakeholders, by whom, when, and
              how long after discontinuance studies are completed. Through discussions
              with field managers, we found that the lack of communication on when final
              decisions will be made is beginning to affect operations. For example,
              customers are questioning the validity of the SBOC Initiative. Also, lease
              termination or renewal actions are on hold pending HQ decisions. We brought
              the lease expiration issue to HQ’s attention and management responded that
              affected facilities should implement emergency suspension procedures, when
              appropriate.

             Contain measurable criteria to mitigate inconsistencies in evaluating factors
              used for determining feasibility to discontinue operations.
             Address coordination with other postal optimization efforts. We identified nine
              of 156 instances where district officials stated it was not feasible to close or
              consolidate a station or branch under the SBOC Initiative due to the Facilities
              Optimization Node14 Study or Area Mail Processing (AMP) Study15 efforts
              (see Table 1).




14
   In April 2008, the vice president, Facilities, initiated a new facilities optimization program to eliminate excess space
and address changing markets.
15
   AMP is the consolidation of all originating and/or destinating distribution operations from one or more post
office/facility into other automated processing facilities for the purpose of improving operational efficiency and/or
service.



                                                            14
  Stations and Branches Optimization                                                             EN-AR-10-005
   and Consolidation Initiative



Table 1. Facilities Not Considered Under the SBOC Initiative Due to Other Postal Service Optimization Efforts
                                                                                   Reviewed
                                                                                                Reviewed
                                                                                     Under
                                                                                                  Under
        Area             District       Facility Name          City       State    Facilities
                                                                                                   AMP
                                                                                     Node
                                                                                                  Study
                                                                                     Study

   Great Lakes     Greater Indiana    Brunswick Station        Gary           IN       X
                                      Downtown
   Great Lakes     Greater Indiana                             Gary           IN       X
                                      Finance Station
   Northeast       Triboro            Linden Hill              Flushing       NY                    X

   Southeast       North Florida      Westside Station         Tallahassee    FL       X

   Western         Mid-America        Boardwalk                Kansas City    MO       X

   Western         Mid-America        Centropolis              Kansas City    MO       X

   Western         Mid-America        Civic Center             Kansas City    MO       X
                                      Desert Inn Retail
   Western         Nevada Sierra                               Las Vegas      NV       X
                                      Unit
                                                               City Spokane
   Western         Seattle            Trentwood Branch                        WA       X
                                                               Valley
  Source: Postal Service

  Resistance to Retail Network Changes

  The Postal Service faces strong resistance to closing and consolidating retail facilities
  from local communities, employees, and lawmakers. While alternate access channels
  are more widely available, some customers resist changing long-standing habits.
  Management needs to improve communication strategies and work with stakeholders to
  overcome resistance. These strategies should include adding an alternate retail access
  channel expansion plan and educating stakeholders on the availability of these
  convenient services. The Postal Service must explain its plans and decisions to
  stakeholders in an open, transparent, and timely manner. Examples of stakeholder
  resistance affecting the SBOC Initiative include:

         The Sacramento District rescinded its December 2009 proposal to close the
          Tuxedo Park Station because a member of Congress made several inquires and
          the affected community boycotted the proposed closure. According to the
          withdrawn proposal, the estimated first year net cost savings would have been
          over $111,000.

         According to a congressional press release, following the August 5, 2009,
          congressional meeting with senior postal officials, only one facility in Las Vegas
          will be considered for consolidation under the SBOC Initiative. Our review
          revealed that, prior to the subject meeting, five Nevada-Sierra District facilities
          were under review as of July 28, 2009. As of the next update on September 2,
          2009, only one Nevada-Sierra District facility remained under review.


                                                          15
Stations and Branches Optimization                                                                                              EN-AR-10-005
 and Consolidation Initiative



      A Hartford, CT, postmaster believed she could not consolidate the LaSalle
       Branch retail function into nearby facilities because of stakeholder concerns.
       However, the postmaster was able to consolidate all delivery functions into a
       nearby facility.

Data Reliability and Usefulness

There is reduced assurance that the data used for the SBOC Initiative was always
reliable and useful. Managers need to rely on data from information systems to make
vital decisions. Specifically:

      Management stated that centralized accounting systems were unable to
       generate a list of stations and branches because not all facilities have a unique
       identification number. As a result, HQ and field personnel spent numerous hours
       identifying and validating data that resulted in multiple SBOC Initiative universes
       ranging from 3,200 to 3,600 stations and branches reporting to a postmaster at
       or above the EAS-24 level. The final universe list was completed and filed with
       the PRC in September 2009, almost 5 months after the SBOC Initiative began.

      From the universe of 3,600 stations and branches, district management used a
       pre-screening process to prioritize and authorize 759 facilities for full
       discontinuance studies. We found 26 of the 759 facilities did not meet the intent
       of the SBOC Initiative and were incorrectly included in the universe (see Table
       2). Notwithstanding the data issue, based on local knowledge, management
       should have recognized the anomalies during the pre-screening phase. For
       example, the two closed facilities discontinued their operations in May 2008 and
       July 2009.
                                    Table 2. Offices Incorrectly Added to the SBOC Initiative Universe
                             12
                             10
         Number of Offices




                             8
                             6
                                                                              11
                             4
                                                         6
                             2                                                                        4                   3
                                       2
                             0
                                   Closed Units   Main Post Offices   Delivery/PO Box Units   Non-Personnel Units   Duplicate Units

                                                                      Type of Offices

                                  Source: Postal Service

      The Post Office Discontinuance Tracking System (PODTS) tracked PO and other
       retail unit discontinuance. However, management stated in the September 30,
       2009 Official Transcript of Proceeding Before the PRC that the data in the


                                                                        16
Stations and Branches Optimization                                                 EN-AR-10-005
 and Consolidation Initiative


       system was inaccurate. Based on PODTS data, management reported to the
       PRC that they closed a total of 96 stations and branches between FYs 2005 and
       2008. Management later found a number of data entry errors in PODTS,
       including misidentification of facilities. Subsequently, management filed a
       correction and revised the number of closures from 96 to 21 for the same period.

      Management also reported to the PRC that the 21 facilities identified above
       represented the number of closures for each FY, not just facilities reporting to
       postmasters at or above the EAS-24 level. However, our review of the Postal
       Service Annual Reports revealed stations and branches were reduced by 187
       facilities between FYs 2005 and 2008 (see Table 3).

                              Table 3. Station and Branch Reductions

                                            FY 2005    FY 2006   FY 2007    FY 2008    Total
         Reported to PRC                       4          7         5          5        21
         Postal Service Annual Reports         0         59            92     36        187
         Source: PRC and Postal Service

      The Postal Service replaced the PODTS with the Post Office Discontinuance and
       Emergency Suspension System (PODESS). The PODESS is designed to track
       discontinuance and emergency suspension activities. The PODESS is also a
       document-generation system that assists field coordinators with the development
       of discontinuance studies. However, management stated that PODESS does not
       allow the import of PODTS historical data due to restrictions in the Facilities
       Database. Additionally, HQ did not require field personnel to enter historical data
       into the new PODESS. While management provided training in July 2009, we
       found HQ and field personnel do not use the PODESS. Instead, they track,
       report, file, and maintain discontinuance activities manually. As a result, the
       Postal Service continues to have inaccurate discontinuance data in its database.

Inconsistencies in Evaluating Factors

The Postal Service did not establish criteria for field management to evaluate factors
used for determining feasibility to discontinue operations. As a result, we found some
facilities might have missed discontinuance opportunities because non-feasibility
justifications may not be objective (see Table 4). In addition, without clear criteria,
inconsistencies in the process may appear as not transparent, equitable, or fact-based.
Specifically, we found:

      District management removed 80 leased stations and branches from
       discontinuance consideration and provided “no lease termination/buy-out not cost
       effective” as one or several non-feasible justifications. Our review of lease
       agreements revealed that 10 of the 80 lease agreements do contain lease
       termination clauses the Postal Service may exercise. In addition, three of the 10



                                               17
Stations and Branches Optimization                                                    EN-AR-10-005
 and Consolidation Initiative


           facilities provided “no lease termination clause” as their only non-feasible
           justification. As a result, the Postal Service may have missed an opportunity to
           reduce lease costs by approximately $1 million for these three facilities (see
           Appendix C).

          In contrast to the 80 facilities identified above, district management submitted
           proposals to HQ recommending closure for 21 leased facilities even though they
           have no lease termination clauses. The lease expiration dates range from June
           2010 to January 2020.

          District management provided “High Revenue and/or Growth” as one of several
           non-feasible justifications for 171 facilities. While revenue is generally declining
           nationwide, we found that 71 of the 171 facilities were also in areas with zero or
           negative growth rates.16

          District management provided “No Retail Presence in Close Proximity” as the
           only non-feasible justification for 35 facilities. Our review of retail locations on
           usps.com revealed that, generally, there are other retail facilities within 5 miles
           from the office being considered.

We believe the inconsistencies also resulted, in part, due to HQ relying on local
management for decision-making. Consequently, the SBOC Initiative’s results are
primarily subjective and qualitative in nature. We found that HQ reviewed and validated
discontinuance proposals recommending closures, but they did not review non-feasible
justifications provided to remove facilities from closure consideration. HQ stated they
read district-prepared documents to obtain non-feasible justifications for recording in an
Excel spreadsheet used to track the SBOC Initiative status. We believe that while a
bottom-up approach is helpful, the discontinuance process should incorporate a top-
down approach to complement the local knowledge. A top-down approach should begin
with network solutions based on retail optimization modeling, which has national
implications. Expertise of local management is needed to validate the data to ensure
consolidation opportunities are feasible. This approach potentially:

          Is more objective and equitable and easier to defend to stakeholders.

          Has more flexibility and can revise assumptions and parameters.

          Is strategic and can rank opportunities based on service and projected cost
           savings.

Management recognized the gap and has begun actions to develop a decision tree-
based retail discontinuance model to mitigate the inconsistency and subjectivity


16
     Postal Service Demographic Report data as of March 30, 2010.



                                                         18
Stations and Branches Optimization                                                                                                                                                EN-AR-10-005
 and Consolidation Initiative


identified in our review. In addition, management has initiated a LSS study to improve
the discontinuance process for POs and other retail facilities.
                                                   Table 4. Non‐Feasible Justifications and the Frequency Used to Remove Offices From Closure 
                                                                                           Consideration

                                                                      Future Consideration When Base Closes
                                                                                                                       2

                                              No Study Required. Moving/Relocating Carriers and/or Retail/NPU.
                                                                                                                           12

                                                       Located in major Financial/Business/Government District
                                                                                                                           13

                                                                       High Carrier Transportation/Labor Costs
                                                                                                                            15

                                                                                 High Building Alteration Costs
                                                                                                                                 24
        Type of Non-Feasible Justifications




                                                                                             Parking Concerns
                                                                                                                                      30

                                                                                     Socio-Economic Concerns
                                                                                                                                            38

                                                                          Facility Incorrectly Added To The List
                                                                                                                                                 44

                                                                                         Competitor Concerns
                                                                                                                                                 45

                                                                                      Transportation Concerns
                                                                                                                                                  48

                                                                              Significant Community Concerns
                                                                                                                                                            76

                                                               No Lease Termination/Buy-out Not Cost Effective
                                                                                                                                                             80

                                                                                   Pursuing Other Alternatives
                                                                                                                                                                 83

                                                                      Gaining Offices Cannot Absorb Workload
                                                                                                                                                                                              168

                                                                         No Retail Presence in Close Proximity
                                                                                                                                                                                              170

                                                                                  High Revenue and/or Growth
                                                                                                                                                                                               171

                                                                                                                   0        20             40          60   80        100   120   140   160     180

                                                                                                                            Frequency of Non-Feasible Justifications Used

                                                                                         Source: Postal Service

Public Input

We asked the public, using an external blog on the OIG website, which of these retail
optimization and consolidation efforts stakeholders are most likely to support. A total of
219 voters indicated a preference as noted below:

      Close retail facilities located too close together (29 percent).
      Serve as a “Federal Center” to provide certain basic functions for other federal
       agencies (26 percent).




                                                                                                               19
Stations and Branches Optimization                                             EN-AR-10-005
 and Consolidation Initiative


      Allow the Postal Service to expand product offerings to increase the revenue
       potential of the retail network (22 percent).
      Adjust operating hours consistent with local needs (9 percent).
      Other efforts (9 percent).
      Separate retail and delivery functions (5 percent).

In a separate blog, we asked voters who should bear the primary responsibility for
determining which postal facilities should be closed. A total of 202 voters indicated a
preference as noted below:

      The Postal Service (30 percent).
      The Postal Service, PRC, and Congress should work together and share the
       responsibility (24 percent).
      An independent commission/body (22 percent).
      Congress (19 percent).
      The PRC (5 percent).




                                            20
Stations and Branches Optimization
 and Consolidation Initiative                                                                    EN-AR-10-005



                                APPENDIX C: MONETARY IMPACT

The OIG identified $2,773,043 in funds put to better use17 related to untimely
discontinuance decisions and missed opportunity to reduce lease costs. The Postal
Service spends about $425,000 per month to maintain operations at 28 facilities we
randomly selected for review. District management forwarded proposals recommending
discontinuance of operations for these 28 facilities to HQ. Although HQ Retail
Operations completed pre-decisional reviews of the 28 proposals in February 2010, no
final agency decisions have been made through the time of our report due to other
priorities. We estimated the Postal Service could realize cost savings of over $1.7
million from March 1 to September 30, 2010, if they approved discontinuance of
operations for the 28 facilities after completing pre-decisional reviews18 (see Table 5).

In addition, the amount the Postal Service could save should it terminate leases at the
Atlanta Civic Center, Tower Grove, and Southwest Stations is $1,055,320.19 District
management removed these stations from discontinuance consideration and cited “no
termination clause” as the only non-feasible justification. However, the OIG review
found that lease agreements for these stations contain termination clauses that provide
the Postal Service the option to terminate the leases with proper written notice. We
estimated the present value using October 1, 2010, as the start date to begin the
termination notice period for each facility (see Table 6).




17
   Funds that could be used more efficiently by implementing recommended actions.
18
   According to the Postal Service, during FYs 2007 and 2008 it did not disapprove any station or branch
discontinuance proposals submitted to HQ by field offices.
19
   The amount covered the savings in lease costs. It did not include savings through eliminating utility and
maintenance expenses. The costs to move the PO boxes to another unit were not taken into account and subtracted
from the monetary impact. However, the utilities and maintenance savings may balance out the cost to move PO
boxes.



                                                      21
         Stations and Branches Optimization
          and Consolidation Initiative                                                                                                              EN-AR-10-005



                                                      Table 5. Untimely Discontinuance Decision Costs
                                                                                                                               7 Months Net
                                                                                                                                  Savings
                                                                    Annual Savings
                                                                                   20                                                           One Time        Net Cost
                Facility                                                                                                         (March 1 –            21
                                                                                                                                                 Costs          Savings
                                                                      Inter-station                 Replacement                September 30,
                                          Personnel      Leases      Transportation     Other         Services       Total         2010)

Canton Deuber, Canton, OH                    $278,501     $84,468                       $26,898        $ (22,454)   $367,413        $214,324       $(5,957)      $208,367

Dearborn-Teleford, Dearborn, MI               214,248      60,000                        55,325         (35,042)     294,531         171,810     (240,609)        (68,799)

East 14th Retail, Des Moines, IA                           31,400                         1,227                       32,627          19,032       (72,966)       (53,934)

East Akron Akron, OH                          173,852      99,900                        40,295                      314,047         183,194                -     183,194

Eastside, Tuscaloosa, Al                      282,904      51,815                        19,897                      354,616         206,859     (525,000)       (318,141)

Eastway, Charlotte, NC                        153,955      61,600                        10,672                      226,227         131,966       (25,000)       106,966

Edgewater, Lakewood, OH                       109,584      19,722                        14,098                      143,404          83,652       (20,000)        63,652

Elmwood, Syracuse, NY                          56,621      11,928             18,088     12,571                       99,208          57,871       (88,973)       (31,102)

Fairfax, Kansas City, KS                       51,591      16,302             31,059     11,499         (22,206)      88,245          51,476        (1,774)        49,702

Gary-Brunswick, Gary, IN                      107,126      21,600                         6,732           (2,541)    132,917          77,535                       77,535

Great Southwest, Arlington, TX                                                           89,929                       89,929          52,459                       52,459

Huntington, Cleveland, OH                     107,104       8,550                         6,036                      121,690          70,986                       70,986

Kaiser Center, Oakland, CA                    139,461      19,478                         3,915         (29,447)     133,406          77,820       (15,904)        61,916

Kamms, Cleveland, OH                           60,257      20,960                         9,859                       91,076          53,128                       53,128

Lindenwald, Hamilton, OH                       56,617       6,300                               -                     62,917          36,701                       36,701


         20
            Annual savings include retail salaries and fringe benefits, leases, utilities, maintenance, and transportation minus any additional costs to be absorbed by
         gaining facilities.
         21
            One-time costs include building alterations and lease buyouts.

                                                                                        22
         Stations and Branches Optimization                                                                                                EN-AR-10-005
          and Consolidation Initiative

                                                                                                                        7 Months Net
                                                                                                                           Savings
                                                                   Annual Savings
                                                                                 20                                                     One Time         Net Cost
               Facility                                                                                                   (March 1 –           21
                                                                                                                                         Costs           Savings
                                                                     Inter-station             Replacement              September 30,
                                         Personnel    Leases        Transportation    Other      Services     Total         2010)

Macon Mall, Macon, GA                       110,766    70,000                17,417    7,280       (54,145)   151,318          88,269      (9,685)           78,584

Maple Valley, Akron, OH                     173,852    47,124                         48,598                  269,574         157,252                       157,252

Midtown, Tucson, AZ                         394,289    30,857                 9,401   67,318                  501,865         292,755    (142,142)          150,613

Newtown, Cincinnati, OH                      51,233    27,840                32,065   21,446              -   132,584          77,341               -        77,341

North Park Retail, San Diego, CA            216,580   155,400                13,817   21,108              -   406,905         237,361               -       237,361

Park Station, Berkeley, CA                   85,465     8,400                          1,563              -    95,428          55,666     (16,420)           39,246

Pawtucket Valley Falls, Cumberland, RI       54,145    30,201                 9,247   14,241        (4,028)   103,806          60,554     (92,103)          (31,550)

Port Wentworth, Savannah, GA                 70,122    14,818                38,929   17,391              -   141,260          82,402               -        82,402

Southeast, Kansas City, MO                  341,917            -             61,223   16,323       (18,973)   400,490         233,619               -       233,619

Station A, Green Bay, WI                     74,626     9,000                          4,544        (9,954)    78,216          45,626               -        45,626

Stock Yards, Cincinnati, OH                  51,233    12,456                12,024    2,700        (3,095)    75,319          43,936               -        43,936

Wilkes-Barre – Ashley, Ashley, PA            90,942    13,200                 1,888    5,757              -   111,787          65,209               -        65,209

William Chick, Kansas City, MO               51,591            -              6,977   30,883       (11,531)    77,920          45,453               -        45,453

                                                          Total Funds Put To Better Use                                                                 $1,717,723




                                                                                      23
Stations and Branches Optimization                                                                                                         EN-AR-10-005
 and Consolidation Initiative



                                       Table 6. Missed Opportunity to Reduce Lease Costs

                                                                                                   Monthly         Option to      Present Value -
                                                              Lease Start       Lease End
                                    Facility                                                        Lease          Terminate          Lease
                                                                 Date             Date                                                       22
                                                                                                   Amount         Notice Period     Payments

                   Civic Center Station, Atlanta, GA          03/01/2007        02/28/2017         $18,000         24 months            $ 875,533

                   Tower Grove Station, St. Louis, MO         10/01/2008        11/30/2013          $1,383          3 months               45,707

                   Southwest Station Oklahoma City, OK        05/01/2006        04/30/2013          $5,016          3 months             134,080


                                                          Total Funds Put To Better Use                                               $ 1,055,320




22
     Rent is due at the beginning of the month and the Postal Service discount borrowing rate is 3.875 percent.

                                                                                24
Stations and Branches Optimization                                                                          EN-AR-10-005
 and Consolidation Initiative


     APPENDIX D: FACILITIES REMAINING UNDER CONSIDERATION FOR DISCONTINUANCE




                                Number of Possible Closures by State
         156 Stations and Branches Remain Under Review For Possible Consolidation Under the
                              SBOC Initiative by State as of March 2010




                                            ND
                                            1
               OR
                                                                                                           MA
               2
                                                                WI                               NY        3
                                                                1          MI                    11
                                                                                                            RI
                                                                           6
                                                                                           PA               1
                                                      IA
                                              NE                                           11
                                                      2
                    NV                        4                                 OH
          CA                                                     IL
                    1                                                 IN        25
          19                                                     1                    WV
                                                                      4                     VA
                                                 KS        MO                         2
                                                                            KY              3         NJ
                                                 2         3
                                                                            3                         7
                                                                                                NC
                                                                       TN
                                                                                                5
                           AZ                                          1
                                                                                       SC
                           1                               AR
                                                                                       2
                                                           4
                                                                       AL        GA
                                                                       3         5
                                            TX             LA
                                            5              2

                                                                                           FL
                    PR 2                                                                   14




                                                           25
Stations and Branches Optimization                                                                                 EN-AR-10-005
 and Consolidation Initiative


    APPENDIX E: COMPARISON OF TWO RETAIL FACILTY DISCONTINUANCE PROCESSES


  Post Office Closures                       Duration       Station and Branch                         Duration
  (average 9 months)                                        Closures (average 4
                                                            months)

  Office selected for discontinuance study    25 days       Office selected for discontinuance study     15 days
  (data gathering)                                          (data gathering)

  Community input                             25 days       Community input                              20 days


  Proposal posting                            60 days*      Proposal (no posting)                        10 days

  Consideration of public comments            40 days


  HQ review and final determination           30 days       HQ review and final determination            10 days


  Appeal period                               30 days*


         If appealed, PRC has 120 days* to make a
                determination on the appeal

  Office closure after posting of final       60 days       Office closure after posting of final        60 days
  determination                                             determination and community
                                                            notification
  * Procedures and timeframe are mandated by requirements
  in Title 39, U.S.C. 404(d)




                                                               26
Stations and Branches Optimization
 and Consolidation Initiative                                                                                                                                                                                                                                                              EN-AR-10-005



                                                                                                          APPENDIX F: SBOC INITIATIVE TIMELINE




              April 2009                     May 2009                       June 2009                          July 2009                      September 2009                     October 2009                     November 2009                     Decebmer 2009                   January 2010                       March 2010


                                                                    6/3/2009 & 6/16/2009 - HQ         7/2/2009 - the Postal Service                                        10/9/2009 - 371 stations and
      The SBOC Initative concept     05/15/2009 - Postal Service                                                                          9/2/2009 - the Postal Service                                    11/20/2009 - 241 stations and      12/14/2009 - 168 stations and                                    3/10/2010 - PRC issued an
                                                                        provided PowerPoint          filed a request with the PRC for                                       branches remained under                                                                           1/29/2010 - 162 stations and
      was developed during a bi-     notified the American Postal                                                                       filed with the PRC, 759 stations                                     branches remained under            branches remained under                                      avisory opinion report with nine
                                                                    presentation trainings to area    for an advisory opinion on the                                         consideraton for closure.                                                                          branches remained under
        weekly meeting with the      Workers Union of the SBOC       and district managers and                                            and branches were identified                                       consideraton for closure.          consideraton for closure.                                                findings
                                                                                                      national service implication of           and authorized for                                                                                                              consideraton for closure.
      deputy postmaster general;                Inititive.                 postmasters.
      vice president, Delivery and                                                                        the proposed closures.              discontinuance study.
      Post Office Operations; and
         area vice preseidents.                                                                                                                                                                                                                                                                                 3/16/2010 - stations and
                                                                                                      7/28/2009 - 677 stations and                                                                         11/30/2009 - discontinunance                                                                      branches sites remained under
                                                                                                       branches remained under                                                                                    study packages                                                                                consideraton for closure.
                                                                                                                                         9/2/2009 - 413 stations and
                                                                                                        consideraton for closure.                                                                           recommendaing closure are
      4/22/2009 - At the area vice                                                                                                        branches remained under
                                                                                                                                          consideraton for closure.                                       due from district offices to HQs.
     president meeting, PowerPoint
      presetnation was created to
                                                                                                                                                                                                                                                                                                              HQ completed review of 144
      communicate concept to the                                                                         HQ updated and revised
                                                                                                                                                                                                                                                                                                                  distinuance packages
              field offices.                                                                             PowerPoint presentation
                                                                                                                                         9/7/2009 - the Postal Service                                                                                                                                           recommending closure.
                                                                                                      trainings to reflect the SBOC                                                                       HQs established team to review
                                                                                                                 Initiative.             filed an update with the PRC,                                      the discontinuance study                                                                           No decisions to approve or
                                                                                                                                        indentifying 3,616 stations and                                             packages.                                                                                disapprove through the date of
                                                                                                                                         branches as the universe for                                                                                                                                                   this report.
                                                                                                                                               the SBOC Initiative.




                                                                                                                                                                     27
Stations and Branches Optimization                                      EN-AR-10-005
 and Consolidation Initiative



                         APPENDIX G: SBOC INITIATVE PROCESS




                                              SBOC Initiative Process




                                         28
Stations and Branches Optimization
 and Consolidation Initiative                              EN-AR-10-005



                       APPENDIX H: MANAGEMENT’S COMMENTS




                                      29
Stations and Branches Optimization
 and Consolidation Initiative             EN-AR-10-005




                                     30
Stations and Branches Optimization
 and Consolidation Initiative             EN-AR-10-005




                                     31
